HHS/OIG Audit,"Maryland Department of Human Resources Child Support Enforcement Medical Support"; (A-03-01-00217)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Maryland Department of Human Resources Child Support Enforcement Medical Support," (A-03-01-00217)
October 30, 2001
Complete
Text of Report is available in PDF format (507 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of an Office of Inspector General, Office of Audit Services limited scope
review to identify and evaluate the processes and procedures to ensure that non-custodial parents (NCP) obligations are
determined and met as primary payers before public funds are used to cover their childrens medical needs as required by
Section 466(a)(19) of Title IV-D of the Social Security Act.  We found that Maryland was in general compliance with
Section 466 and has implemented positive actions to ensure that NCPs are covering their childrens medical insurance needs.  We
made three procedural recommendations that we believe will make Marylands program even more effective.